No. 20-1817

IN THE

'upreme Court of tjje Mutter' btatel
EZAKI GLICO KABUSHIKI KAISHA, D/B/A EZAKI GLICO
CO., LTD. & EZAKI GLICO USA CORP.,
Petitioners,
v.
LOTTE INTERNATIONAL AMERICA CORP. & LOTTE
CONFECTIONARY CO. LTD.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 12, 2021.

C•
Colin Cas Hogan
Wilson-Epes Printing Co., Inc.

